BENDETT & McHUGH, P.C.
ATTORNEYS AT LAW

January 4, 2021
Hon. Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE: Request for extension of time to file response to petition
Mark E. O’Brien v. U.S. Bank Trust N.A.
S. Ct. No. 20-764
Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, counsel for the Respondent, U.S. Bank Trust,
N.A., as Trustee for LSF9 Master Participation Trust, respectfully moves this Court for
an extension of thirty (30) days in which to file a Brief in Opposition to Petitioner’s Writ
of Certiorari.
Additional time is warranted at this juncture given the ongoing COVID-19 pandemic.
Additional time is needed to complete the Opposition and have paper copies of the brief
appropriately formatted and printed. Additionally, the undersigned was not counsel of
record for either the State Trial Court proceedings or the State Appellate proceedings and
additional time is needed to review all relevant case history and all applicable decisions.
An additional delay of thirty days will not prejudice the Petitioner in this matter.
Respectfully submitted,
/s/ Robert J. Wichowski
Robert J. Wichowski
Bar# 307638
Bendett & McHugh, P.C.
270 Farmington Avenue, Suite 151
Farmington, CT 06032
(860) 470-2600
rwichowski@bmpc-law.com
Dated: January 4, 2021

270 FARMINGTON AVENUE, SUITE 151, FARMINGTON, CT 06032  TEL (860) 677-2868  TDD/TYY PLEASE FIRST DIAL 711

